No. 20A169
IN THE SUPREME COURT OF THE UNITED STATES
ALABAMA ASSOCIATION OF REALTORS, ET AL.,
APPLICANTS
v.
DEPARTMENT OF HEALTH AND HUMAN SERVICES,
ET AL.
.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the RESPONSE IN OPPOSITION TO APPLICANTS’ EMERGENCY APPLICATION
TO VACATE THE STAY PENDING APPEAL ISSUED BY THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF COLUMBIA CIRCUIT, via e-mail and
first-class mail, postage prepaid, this 10th day of June 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 10, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

SERVICE LIST: 20A169
ALABAMA ASSOCIATION OF REALTORS, ET AL. V. DEPARTMENT OF HEALTH AND
HUMAN SERVICES, ET AL.
BRETT A. SHUMATE
JONES DAY
51 LOUISIANA AVE., N.W.
WASHINGTON, DC 20001
202-879-3939
BSHUMATE@JONESDAY.COM
LOREN L. ALIKHAN
D.C. OFFICE OF THE ATTORNEY GENERAL
OFFICE OF THE SOLICITOR GENERAL
400 6TH STREET, NW
SUITE 81OO
WASHINGTON, DC 20001
202-727-6287
LOREN.ALIKHAN@DC.GOV

